        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Hydrogen and Fuel Cells Program




OAS-RA-13-31                     September 2013
                                 Department of Energy
                                   Washington, DC 20585

                                      September 27, 2013


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Hydrogen and Fuel Cells Program"

INTRODUCTION AND OBJECTIVE

The Department of Energy spent approximately $1 billion over the last 5 years on Hydrogen and
Fuel Cells Program activities implemented through various projects at Federal laboratories,
universities, non-profit institutions, Government agencies and industry participants. The
Department also provided an additional $42 million in American Recovery and Reinvestment
Act of 2009 funding to accelerate the commercialization and deployment of fuel cells. As of
April 2013, there were nearly 300 ongoing projects funded at the national laboratories and
managed through financial assistance awards such as grants and cooperative agreements. The
Hydrogen and Fuel Cells Program within the Office of Energy Efficiency and Renewable Energy
(EERE) coordinates the Department's efforts across four Program Offices – EERE, Science,
Nuclear Energy and Fossil Energy – to promote the widespread use of hydrogen and fuel cells,
the stated purpose being to help build a competitive, secure and sustainable clean energy
economy.

The Office of Inspector General has consistently viewed financial assistance award management
as one of the Department's key management challenges. Based on this focus and due to its
significant investment in the Program, we initiated this audit to evaluate the Department's
management of the Hydrogen and Fuel Cells Program.

RESULTS OF AUDIT

We found the Department had not always effectively managed the financial aspects of the
Hydrogen and Fuel Cells Program. Specifically, our review identified over $6.6 million in
questionable costs out of approximately $68 million in total reimbursements at 10 recipients
sampled in our review. Specifically, we found that the Department:

   •   Reimbursed $5.3 million in unsupported and/or unallowable costs at nine recipients for
       unsupported subcontractor or partner costs, potentially unallowable and/or unsupported
       travel and meal costs and other expenses that were not supported by detailed invoices.

   •   Was unaware that one recipient included unallowable costs of approximately $700,000 in
       its indirect cost rate calculation, a practice that resulted in higher than allowable
       reimbursements estimated at over $64,000.
                                                2

   •   Had not ensured that recipient procurement practices were adequate to fully protect the
       Government's interests and that these practices complied with applicable policies,
       procedures and best practices. For example, one recipient non-competitively awarded
       approximately $1 million for subcontract work to two companies that shared common
       ownership interests with the recipient. In addition, recipients had not always utilized
       competition to obtain the best possible prices for goods and services purchased with
       Federal funds. At two of the recipients, we found examples of purchases valued at about
       $210,000 for materials, equipment and services that were not supported by competitive
       bidding procedures. Accordingly, we questioned approximately $1.2 million of
       procurement costs that may not have provided the best value to the Government.

The issues we identified occurred, in part, because program officials had not always provided
effective monitoring and oversight and/or adequate guidance to ensure that required financial and
accounting policies and procedures were properly adhered to on a consistent basis. For instance,
we noted that the Department had not adequately reviewed information that should have led
officials to question the potential conflicts of interest identified in our report. In addition,
although the Department placed strong emphasis on monitoring contract administration,
reporting requirements and technical aspects of projects, it had not adequately monitored
financial aspects of the projects to ensure that funds were being used as directed and in
accordance with all applicable Federal regulations. Moreover, the Department had not always
ensured that recipients arranged for independent audits of internal controls to be conducted as
required by financial assistance regulations. These audits would have helped increase the
confidence that the Federal projects were managed in strict compliance with laws and
regulations, as well as the terms and conditions of the awards. These weaknesses are similar to
those identified in our recent audit report on The Department of Energy's Industrial Carbon
Capture and Storage Program Funded by the American Recovery and Reinvestment Act, (OAS-
RA-13-15, March 2013). During that audit, we found that the Department had not implemented
certain performance monitoring controls that could have allowed for more thorough reviews of
costs prior to reimbursement.

The lack of attention to financial monitoring of recipients increased the risk that questionable
and/or unallowable costs would be charged to the Department, effectively reducing the amount
of funds available to complete worthwhile projects. Accordingly, we questioned more than $6.6
million in reimbursements to Hydrogen and Fuel Cells Program recipients included in our review
(See Appendix 1). While we could not extrapolate to all Hydrogen and Fuel Cells Program
projects, the control weaknesses identified in our report could result in similar issues with other
recipients.

In light of current budget challenges, it is critical that the Department ensure that limited
resources are used to advance the mission of the Hydrogen and Fuel Cells Program. As such, we
made several recommendations that, if fully implemented, should improve the Department's
control over the financial aspects of hydrogen and fuel cell projects.

MANAGEMENT REACTION AND AUDITOR COMMENTS

Management concurred with our recommendations and indicated that it had initiated and/or
taken corrective action to address issues identified in our report. Management's proposed
corrective actions are responsive to our recommendations. Management's comments are
included in Appendix 4.
                                              3

Attachment

cc:   Deputy Secretary
      Acting Under Secretary of Energy
      Acting Under Secretary for Science
      Assistant Secretary for Energy Efficiency and Renewable Energy
      Acting Assistant Secretary for Fossil Energy
      Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S HYDROGEN AND
FUEL CELLS PROGRAM


TABLE OF
CONTENTS

Hydrogen and Fuel Cells Program

Details of Finding ............................................................................................................................1

Recommendations and Management Reaction ................................................................................6

Auditor Comments ...........................................................................................................................7

Appendix

1. Questioned Costs .......................................................................................................................8

2. Objective, Scope and Methodology ...........................................................................................9

3. Prior Reports ............................................................................................................................11

4. Management Comments ..........................................................................................................12
THE DEPARTMENT OF ENERGY'S HYDROGEN AND FUEL CELLS
PROGRAM

Hydrogen and Fuel Cells Program

The Department of Energy (Department) had not always effectively managed the financial
aspects of the Hydrogen and Fuel Cells Program. As such, the program incurred questionable
costs totaling more than $6.6 million of the approximately $68 million that had been reimbursed
by the Department to 10 recipients. These costs were incurred under financial assistance awards
funded by the Office of Energy Efficiency and Renewable Energy (EERE), the Office of
Science, and the Office of Fossil Energy (See Appendix 1). 1 We identified questionable costs
related to unsupported recipient and subcontractor expenditures, travel and meal expenses and an
inaccurate indirect rate calculation. Furthermore, we questioned a number of procurement
practices involving potential conflicts of interest and lack of competition that, as demonstrated
by the actual or potential impact on cost, were not in the Government's best interest.

                                     Unsupported and Unallowable Costs

The Department approved and reimbursed approximately $5.3 million of unsupported and/or
potentially unallowable costs to 9 of the 10 recipients we reviewed. Regulations require that
incurred costs be reasonable, allocable and adequately documented in the recipient's records in
order to be allowable. However, we found that:

     •   Seven of the 10 recipients could not provide support for subcontract costs of
         approximately $5.2 million that were reimbursed by the Department. Specifically, our
         judgmental sample of invoices submitted to prime recipients from subcontractors
         contained inadequate detail related to costs such as salaries and wages, fringe benefits,
         travel, materials and supplies and indirect costs. For example, invoices did not include
         an itemization of specific costs or supporting documentation, such as number of
         employees, hours expended, labor rates, materials, equipment and supplies purchased or
         travel expenses. Although our sample was not statistical, recipient officials informed us
         that the quality of the invoice documentation for our sampled items was consistent with
         that available for all invoices. In particular, various recipient officials told us that they
         generally relied on certifications from subcontractor officials as to the appropriateness of
         the costs claimed rather than conducting their own reviews or obtaining more detailed
         support. Due to the lack of supporting documentation, we questioned the $5.2 million in
         reimbursements as unsupported.

     •   Two recipients were unable to provide supporting documentation for non-subcontract
         type expenses totaling nearly $50,000. These expenses were described in the recipients'
         ledgers as being for materials, supplies, services, travel and meals related to the projects.
         However, absent supporting documentation, we were unable to satisfy ourselves that the
         costs reimbursed by the Department were appropriate. As a result, we questioned nearly
         $50,000 as unsupported costs.

1
  Of the 20 total projects reviewed in our sample of 10 recipients, we did not identify any material concerns with the
two projects that were funded by the Office of Science. We did not sample Nuclear Energy Program recipients due
to the relatively small dollar value of awards.


Page 1                                                                                         Details of Finding
    •    Eight of the 10 recipients had incurred questionable costs related to travel and meals that
         were claimed and reimbursed by the Department. In total, we identified over $43,000 of
         expenses that recipients claimed and had been reimbursed for questionable and
         potentially unallowable activities. Included in these costs were lodging and meal
         expenses that exceeded prescribed limits, local meals and refreshments for recipient
         employees, Department representatives and other visiting guests, unnecessary car rental
         insurance, alcohol purchases, and other travel and meal expenses that lacked sufficient
         supporting documentation. Therefore, we questioned over $43,000 for these travel and
         meal costs.

Additionally, we found that one recipient included potentially unallowable costs of
approximately $700,000 in the indirect cost rate applied to the project. Specifically, between
2007 and 2009, the recipient included over $528,000 of legal and professional expenses that
supported a legal challenge to the ownership of the company, nearly $30,000 of what the
recipient identified as business meals and entertainment costs, and bad debt expenses of over
$140,000 – costs that were either potentially or specifically unallowable under the Federal
Acquisition Regulation Part 31.205. This resulted in a higher than appropriate overhead rate
being applied to the Department's reimbursements over an extended period of time. Specifically,
had these unallowable costs not been included in the recipient's indirect cost rate calculation, we
estimate that the Department would have reimbursed approximately $64,510 less in indirect
costs. Notably, beginning in 2010, after hiring an accountant, business meals and entertainment
costs were determined to be unallowable by the recipient and no longer included in the overhead
rate calculation. Recipient officials acknowledged the errors and indicated that they were
initially unclear of how to calculate and apply overhead rates. The recipient also noted that the
Department never questioned the rates or asked them for an Indirect Cost Proposal, which is
required by the Department's Federal Assistance Reporting Checklist to be submitted annually.
According to its Chief Financial Officer, the recipient assumed that the rates were acceptable
because the Department had not raised any issues; therefore, prior periods were not reviewed.
As a result, we questioned $64,510 in reimbursed indirect costs.

In response to our audit, the Department indicated that it had initiated actions to review the
identified questioned costs and recover any costs determined to be unallowable.

                                       Procurement Practices

Contrary to Federal regulations, recipients had not always effectively purchased goods and
services in a manner that protected the Department's interests in the Hydrogen and Fuel Cells
Program. Our review identified several issues related to procurement practices at various
recipients supporting the program. In total, we identified over $1.2 million in reimbursements
related to questionable procurement activities such as non-competitive awards involving
potential conflicts of interest and ensuring that goods and services were procured at the lowest
possible cost. In particular:

   •    One recipient had non-competitively awarded approximately $1 million of design,
        engineering and fabrication services to two companies under a service agreement that had
        common ownership interests with the recipient without specifically disclosing the

Page 2                                                                          Details of Finding
      potential conflict of interest to the Department. The recipient charged over $211,000 to
      the project for labor hours worked under a service agreement with a company owned by
      the recipient's family. While $44,000 was related to direct labor costs, the recipient
      explained that the remaining $167,000 was a recapture of indirect costs, general and
      administrative costs and the margin of profit for the work provided. In addition, the
      recipient provided over $800,000 for design and fabrication work under another service
      agreement with a different company that was also owned by the recipient's owner and his
      family.

      According to Federal regulations, the Department and the recipient share the
      responsibility to identify and mitigate the effect of any potential conflicts of interest.
      Specifically, the Department is required to examine costs with particular care in
      connection with firms or separate divisions that may not be subject to effective
      competitive restraints, including consideration of arm's-length bargaining. In addition,
      the Department relies on the recipient, as the responsible authority, to manage any
      contractual or administrative issues arising out of procurements in support of the award.
      We believe this would include specifically disclosing any potential conflicts of interest to
      Department officials for consideration during the life of the project.

      The recipient's owner explained that there was an understanding between the companies
      that each would assist the other when possible as long as the work being contemplated
      was not required to be bid out. However, given the recipient's failure to disclose the
      potential conflicts of interest to Department officials for review and the non-competitive
      nature of the agreements in place, it is questionable that the "best commercial practices"
      standard required by Federal regulations for determining reasonableness of these costs
      was met. When we brought this matter to the attention of Department officials after our
      review of invoice documentation that had been submitted to the Department, the Project
      Manager and Contract Specialist for the award indicated that they did not generally
      perform reviews for conflicts of interest and instead focused their efforts on the technical
      component of the projects. Given the potential conflicts of interest, we questioned the $1
      million for these related-party transactions.

      As a result of the issues we identified, program officials stated that they were reviewing
      the transactions noted above to ensure the work performed was consistent and reasonable
      for the charges made. The Department stated that it would consider disallowing all or a
      portion of subcontract costs that would not have been incurred under competitive, arm's-
      length transactions. Additionally, the Department stated that it was taking action to
      prevent future conflicts of interest. Specifically, it had begun to use a new term in
      financial assistance agreements requiring recipients to provide assurance to the
      Contracting Officer that no planned, actual or apparent conflicts of interest exist between
      the recipient and potential subcontractors.

  •   We identified a number of instances in which the Department's financial assistance
      partners had not ensured that the lowest possible price had been obtained for goods and
      services purchased with Federal funds. Federal regulations require that recipients'
      procurement procedures must use best commercial practices to ensure reasonable costs
      for procured goods and services, which we believe should include competitive bidding

Page 3                                                                        Details of Finding
       procedures designed to identify a fair and reasonable price. At two recipients reviewed,
       however, we found examples of purchases for materials, equipment and services that had
       not been competitively bid. One recipient had not routinely sought out competitive bids
       to ensure the best possible price for goods and services. In our sample of 30 transactions,
       we identified 5 purchases totaling over $192,000 in which competition had not been used
       to obtain the best possible price. At another recipient, we noted a purchase for nearly
       $18,000 without any competitive bids or justification provided for the sole source
       procurement. Company officials described the reasons why competition had not been
       used. In some cases, officials told us that they believed that the providers selected had
       the most expertise and past experience or were the only ones with the necessary expertise
       to complete the work. However, detailed documentation for the sole source selections
       had not been completed. As a result, we could not determine that the recipient officals
       had a reasonable basis for their respective conclusions regarding the need to procure the
       goods and services without competition, and therefore, we questioned over $210,000
       awarded non-competitively. In response to our audit, the Department requested
       additional information for the subcontracts issued and was in the process of conducting a
       thorough review.

Performance Monitoring and Oversight

The issues we identified occurred, at least in part, because program officials had not always
provided effective monitoring and oversight and/or adequate guidance to ensure that required
financial and accounting policies and procedures were properly adhered to on a consistent basis.
In particular, although the Department placed significant emphasis on the administrative and
technical aspects of projects, it had not always ensured that funds were used as directed and in
accordance with applicable Federal regulations. In addition, Department officials had not
ensured that recipients were fully aware of and in compliance with Federal regulations.

Although the Department placed emphasis on contract administration, reporting requirements
and technical aspects of the projects we reviewed, it had not always effectively evaluated
whether the financial aspects of awards were reliable. For instance, the information that led us to
question potential conflicts of interest of $1 million in awards had been provided to and
approved by program officials through the recipient's periodic requests for reimbursement.
However, because the documentation had not been properly reviewed, the Department did not
identify and question the relationships between the companies or review the appropriateness of
the subcontract.

In addition, as previously noted in our report, one recipient had not been required to submit an
indirect cost proposal to the Department for review, resulting in incorrect overhead rate
calculations. Department officials told us that they were not the cognizant Federal agency for
this recipient, rather, the Department of Defense had such cognizance and was responsible for
obtaining and reviewing annual indirect cost proposals. Also, officials indicated that the
recipient had submitted its indirect rate proposal for 2006 costs to the Defense Contract Audit
Agency (DCAA), the cognizant Federal audit agency. However, the Department could not
provide any evidence supporting its assertion. We determined based on our discussion with
DCAA that the recipient, in fact did not have any current awards with the Department of



Page 4                                                                         Details of Finding
Defense. Further, DCAA staff told us that the most recent activity with the recipient had been a
planned 2006 audit that had been subsequently canceled and added that if an audit needed to be
conducted, the Department would have to send a request to DCAA.

We also found that Department officials had not ensured that Hydrogen and Fuel Cells Program
recipients were fully aware of and in compliance with the Federal rules specific to allowable cost
requirements. In particular, officials at the recipients included in our review commented that
there was a lack of interaction with Department officials specifically related to the financial
monitoring of the awards. Rather, they noted that site visits conducted by Department officials
were almost always solely related to the technical status of the project. In addition, numerous
recipient officials indicated that they were not familiar with the specific nuances of working
within the Federal rules governing allowable cost requirements. As an example, one recipient
indicated it was not aware that only costs up to the per diem maximum for lodging, meals and
incidentals could be requested and reimbursed. An official for another recipient stated that he
was not aware that alcohol was a specifically unallowable cost that we did not find to be credible
because the financial assistance award specifically references Federal Acquisition Regulations
that identify expenditures for alcohol as an unallowable cost. Multiple recipient officials pointed
out that some form of basic training or additional guidance related to making determinations
between allowable and unallowable costs would have been beneficial and may have prevented
certain issues identified in our report. In response to our audit, the Department indicated that it
had recently provided recipients with a presentation emphasizing financial responsibility,
including allowable and unallowable costs. Management also stated that it was in the process of
implementing a consolidated invoice review unit and capability to allow for additional scrutiny
of recipient invoices.

In addition, program officials had not ensured that annual audits of two for-profit recipients had
been conducted. The Department's financial assistance rules require that recipients arrange for
annual independent audits of their operations. The audits are designed to determine whether the
recipient had an internal control structure in place that provided reasonable assurance of
compliance with Federal laws and regulations and the terms of the award. After we brought this
issue to their attention, program officials stated that they had issued notices of deficiencies to the
two recipients regarding the delinquent reports. However, at the end of our review, the
Department was still working to obtain the delinquent reports from the recipients.

Finally, the Department stated that the costs we questioned were incurred at a time when
recipients were permitted regular drawdowns of grant proceeds under an approved budget.
Incurred cost validation was not a part of the regular review process at the time. The Department
stated that high-risk for-profit recipients have since been converted to the reimbursement method
of payment and that, in the future, all high-risk recipients would be placed on the reimbursement
method of payment.

Impact of Program Weaknesses and Path Forward

The lack of financial monitoring of projects placed the Department at a higher than necessary
risk of reimbursing questionable and/or unallowable recipient costs. Funds spent on
questionable and/or unallowable costs may reduce the amount available to complete project



Page 5                                                                            Details of Finding
objectives and represents wasted and misused taxpayer dollars. Accordingly, we are questioning
costs of over $6.6 million that had been previously reimbursed to Hydrogen and Fuel Cells
Program recipients included in our review. In light of existing budget challenges facing the
Department, it is critical that programs ensure that the limited resources available are used to
advance the mission of the Hydrogen and Fuel Cells Program in the most effective and efficient
manner possible.

RECOMMENDATIONS

To address the deficiencies identified in our audit and to ensure that taxpayer dollars are used in
the most effective and efficient manner, we recommend that the Assistant Secretary for Energy
Efficiency and Renewable Energy direct Hydrogen and Fuel Cells Program officials work with
officials in the Office of Fossil Energy to:

   1. Enhance financial monitoring activities, to include identifying and mitigating potential
      conflicts of interest, enforcing requirements pertaining to documentation of procurement
      decisions, and reviewing recipient reimbursement requests for unallowable costs; and

   2. Ensure recipients are aware of Federal award requirements related to cost and
      procurement standards, including allowability of costs claimed for reimbursement, annual
      indirect cost proposals and ensuring that internal control audits are performed as required.

In addition, we recommend:

   3. Contracting Officers in EERE and the Office of Fossil Energy conduct reviews of
      questioned costs identified in our report and determine whether the costs were allowable,
      allocable and reasonable; and

   4. Contracting Officers in EERE conduct a review of the indirect cost rates of the recipient
      that included potentially unallowable costs associated with legal and professional
      expenses, meals and entertainment expenses, and bad debt expenses and collect any
      resulting overpayments identified.

MANAGEMENT REACTION

Management commented that our report had identified opportunities to strengthen Federal
oversight of the financial aspects of Hydrogen and Fuel Cells Program projects, which it planned
to implement in the coming months. Management concurred with each of the recommendations
in the report and indicated that it had initiated and/or taken corrective action to address the issues
identified. Management stated that it was committed to effective grants management and had
recently taken steps to improve the program based on a comprehensive review of grants
management procedures. For instance, it had already started implementing several new
processes to enhance financial monitoring, including an increased emphasis on invoice reviews
and requiring enhanced invoice support documentation. Additionally, management stated that it
would establish a Central Invoice Review Unit to review and approve all reimbursement requests
submitted by recipients for competitively selected financial assistance awards.

Page 6                                         Recommendations and Management Reaction
Management also noted that it would strengthen its education and outreach activities to
recipients by creating an Internet webpage with comprehensive information on Federal award
requirements. In addition, meetings following each award execution will have an "allowable
costs" topic on the agenda. Management committed to establishing a standard set of terms and
conditions for its financial assistance agreements that would clarify recipients' obligations with
respect to potential conflicts of interest, procurement activities and subrecipient management.
Furthermore, management stated that it would have Contracting Officers make final
determinations for all questioned costs and seek recovery for any payments determined to be
unallowable, unallocable or unreasonable.

AUDITOR COMMENTS

Management's comments and planned corrective actions are responsive to our recommendations.
Technical comments from management have been incorporated into this report, as appropriate.
Management's comments are included in Appendix 4.




Page 7                                                                        Auditor Comments
    Appendix 1

                                          QUESTIONED COSTS

    This chart summarizes the questioned costs for the Office of Energy Efficiency and Renewable
    Energy (EERE) and the Office of Fossil Energy identified in the report. As discussed in the
    report, the questioned costs related to unsupported costs, unallowable costs and costs associated
    with related party transactions. These costs were discussed in the Unsupported and Unallowable
    Costs and Procurement Practices sections of the report.


                             Example                                              Questioned Costs
                                                                         EERE         Fossil       TOTAL
                                                                                     Energy
1. Unsupported Subcontract Costs                                       $4,127,344   $1,088,978     $5,216,322
2. Unsupported Recipient Costs                                            $49,560            $0       $49,560
3. Travel and Meal Costs                                                  $40,699        $2,979       $43,678
4. Unallowable Indirect Costs                                             $64,510            $0       $64,510
5. Transactions Involving a Potential Conflict of Interest                     $0   $1,053,779     $1,053,779
6. Lack of Competition or Justification for Sole Source Procurements      $17,988     $192,572       $210,560
Total                                                                  $4,300,101   $2,338,308     $6,638,409




    Page 8                                                                          Questioned Costs
Appendix 2

OBJECTIVE

To determine whether the Department of Energy (Department) had effectively and efficiently
managed the Hydrogen and Fuel Cells Program.

SCOPE

This audit was performed between March 2012 and September 2013, at the Department's
Headquarters in Washington, DC and at the National Energy Technology Laboratory in
Pittsburgh, Pennsylvania. In addition, we conducted site visits to 10 recipients in Pittsburgh,
Pennsylvania, Boulder and Golden, Colorado, and Westwood, Billerica, Lowell and Newton,
Massachusetts.

METHODOLOGY

To accomplish our audit objective, we:

   •   Reviewed applicable laws, regulations and guidance pertaining to the Hydrogen and Fuel
       Cells Program, the American Recovery and Reinvestment Act of 2009 (Recovery Act)
       and financial assistance award administration.

   •   Held discussions with Department officials responsible for the selected recipients to
       determine their roles and responsibilities related to monitoring of awards.

   •   Identified the universe of Hydrogen and Fuel Cells Program projects awarded by the
       Department with completion dates after September 30, 2007. We judgmentally selected
       recipients and/or projects for review based on recipients that were co-located with
       multiple projects, total project funding including Recovery Act funding, projects
       managed by various program offices and ensuring a mix of private companies and
       educational institutions. Using this process, we selected 20 projects awarded to 10
       recipients.

   •   For each of the recipients selected for review, we conducted site visits to evaluate
       recipient policies and procedures for tracking project costs and analyzed a judgmental
       sample of financial transactions related to each of the projects. Our sample size varied
       based on total project funding and the length and nature of the project. In total, we
       sampled 651 financial transactions based on high dollar amounts and obtaining a general
       mixture of payments for materials, equipment, services, travel, meals, salaries and
       benefits, and subcontract costs for the 20 projects reviewed. Because our samples were
       not statistical, we could not project the sample results to the population of financial
       transactions. However, after identifying insufficient documentation for subcontractor
       costs in our sample at certain recipients, we expanded our work and determined that the
       lack of documentation was systemic and affected all subcontract costs. As a result, we
       questioned all payments made to the identified subcontractors for the projects included in
       our review.


Page 9                                                     Objective, Scope and Methodology
Appendix 2

   •   Reviewed recipient documentation obtained from the Department's Strategic Integrated
       Procurement Enterprise System.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations to the extent necessary to satisfy the
audit objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010 and determined that it had established performance measures for the
management of the Hydrogen and Fuel Cells Program. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that may have existed at the time
of our audit. Finally, we conducted an assessment of computer-processed data relevant to our
audit objective and found it to be reliable.

We held an exit conference with Department officials on September 26, 2013.




Page 10                                                   Objective, Scope and Methodology
Appendix 3

                                    PRIOR REPORTS

  •   Audit Report on the Department's Hydrogen Projects (OAS-L-06-19, September 2006).
      This report revealed that the Department of Energy (Department) generally awarded
      grants and cooperative agreements based upon a competitive solicitation followed by a
      peer review to determine the merit of the proposed projects. Also, the work funded at a
      national laboratory, while non-competitively awarded, appeared to be within the
      laboratory's mission. Likewise, we found that the Department required the appropriate
      levels of cost sharing from the awardees. However, we noted that the Department had
      not always conducted effective cost reviews during the performance period of the
      agreements.

  •   Audit Report on The Department of Energy's Industrial Carbon Capture and Storage
      Program Funded by the American Recovery and Reinvestment Act (OAS-RA-13-15,
      March 2013). This report found that the Department had not always effectively managed
      the Industrial Carbon Capture and Storage Program and the use of American Recovery
      and Reinvestment Act of 2009 (Recovery Act) funds. Specifically, the Department had
      not adequately documented the approval and rationale to use $575 million to accelerate
      existing projects rather than proceeding with new awards as required by Federal and
      Department policies. In addition, the Department reimbursed recipients approximately
      $16.8 million without obtaining and/or reviewing adequate supporting documentation.
      Furthermore, three recipients were awarded over $90 million in Recovery Act funding
      even though the projects experienced financial and/or technical issues prior to being
      recommended for selection. Finally, the Department had not ensured that recipient
      subcontractor or vendor selections for goods and services represented the best value to
      the Government.




Page 11                                                                         Prior Reports
Appendix 4




Page 12      Management Comments
Appendix 4 (continued)




Page 13                  Management Comments
Appendix 4 (continued)




Page 14                  Management Comments
Appendix 4 (continued)




Page 15                  Management Comments
                                                                    IG Report No. OAS-RA-13-31

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
